<html>
<title> - LEADING THE WAY: EXAMINING ADVANCES IN ENVIRONMENTAL TECHNOLOGIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                  LEADING THE WAY: EXAMINING ADVANCES 
                     IN ENVIRONMENTAL TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 21, 2017

                               __________

                           Serial No. 115-18

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
           
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-235 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
    
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
DANIEL WEBSTER, Florida              CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
JIM BANKS, Indiana
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             June 21, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamic, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

                               Witnesses:

Mr. Sebastien De Halleux, Chief Operating Officer, Saildrone Inc.
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Neil Jacobs, Chief Atmospheric Scientist, Panasonic Avionics
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Burke Hales, Professor in Ocean Ecology and Biogeochemistry, 
  College of Earth, Ocean and Atmospheric Sciences, Oregon State 
  University
    Oral Statement...............................................    39
    Written Statement............................................    41

Discussion.......................................................    49

             Appendix I: Answers to Post-Hearing Questions

Dr. Neil Jacobs, Chief Atmospheric Scientist, Panasonic Avionics.    62

Dr. Burke Hales, Professor in Ocean Ecology and Biogeochemistry, 
  College of Earth, Ocean and Atmospheric Sciences, Oregon State 
  University.....................................................    65

 
                  LEADING THE WAY: EXAMINING ADVANCES
                     IN ENVIRONMENTAL TECHNOLOGIES

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. The Subcommittee on Environment will come 
to order.
    Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time.
    We welcome you to today's hearing, which is entitled 
``Leading the Way: Examining Advances in Environment 
Technologies.''
    All right. I recognize myself to give an opening statement.
    Good morning, and welcome to today's Environment 
Subcommittee hearing entitled ``Leading the Way: Examining 
Advances in Environmental Technologies.'' First of all, I thank 
each of our excellent panelists for being here today. I'm 
grateful that you're here.
    For a hearing such as this one, there are many different 
avenues we could explore, but certainly one of undeniable 
importance is atmospheric monitoring. Without accurate 
atmospheric monitoring, we simply have no good way to predict 
the weather and, in turn, no ability to ensure that citizens 
are kept out of harm's way when severe weather arises.
    In the federal government, the National Oceanic and 
Atmospheric Administration, NOAA, is tasked with issuing 
forecasts that inform millions of Americans each day. To make 
these forecasts, NOAA also spends billions of dollars on 
environmental observation and data collection. I have no doubt 
that NOAA plays a vital role in atmospheric monitoring and 
weather forecasting. But one of the questions we need to 
explore in this hearing is whether it makes sense for NOAA to 
provide all weather data, to be the exclusive provider of 
weather data.
    In the 21st century, the landscape has changed. The federal 
government isn't the only game in town, nor, I would argue, 
should it be. Partners in the private sector can and should use 
their advanced and innovative technologies to better our 
weather predictions. Unfortunately, NOAA has been reluctant to 
seek the help it needs. In the face of degraded forecasting 
capabilities and aging satellite systems, NOAA has continued to 
solve all of its problems alone, thereby wasting time and 
government resources. Instead of continuing to think inside the 
government-only box, NOAA needs to look to private partners who 
are ready and willing to help.
    Earlier this year, President Trump signed into law the 
Weather Research and Forecasting Innovation Act, a 
comprehensive bill to increase our weather forecasting 
capabilities to better protect lives and property. I commend 
Chairman Lamar Smith for his leadership on this bill, as well 
as the bill's original sponsor, Vice Chairman Frank Lucas. What 
I like most about this bill is that it compels NOAA to 
innovate. For far too long we have relied on outmoded 
government technologies and systems. Thankfully, the Weather 
Bill dictates that NOAA must partner with the growing private 
sector to test and validate its data in order to enhance our 
nation's forecasting capabilities. It is my hope that the 
agency will take full advantage of this opportunity.
    Switching gears slightly, we will also hear today about 
innovative technologies deployed in the oceans and how they can 
significantly influence a number of areas of our lives as well. 
As ocean researchers engage in a wide variety of tasks, from 
collecting data that feeds into our weather models to taking 
ocean measurements that are used to keep commercial shippers 
safe, these men and women are increasingly using cutting-edge 
science and technology. By partnering with our commercial 
sector, we can decrease government costs and ensure that data 
streams continue to flow. As President Trump considers new 
leadership at NOAA, I hope that he will select an Administrator 
who is willing to seriously consider the benefits of private 
innovation.
    I look forward to learning more today about some of the 
technologies that will lead the way to a better and smarter 
future, and I yield back.
    [The prepared statement of Chairman Biggs follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    Chairman Biggs. And I now recognize the gentlewoman from 
Oregon, the Ranking Member, Mrs. Bonamici--Ms. Bonamici for an 
opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all the witnesses for being here today.
    Federal investment in policies can incentivize and drive 
the development of new, innovative technologies. And these 
technologies can help us find creative solutions to our most 
troubling problems. We're fortunate to have with us today three 
witnesses who have all worked with NOAA to bring their 
technologies to the public. This hearing gives us the 
opportunity to discuss the importance of federal engagement 
with nonfederal partners.
    One of the great things about new technology is that even 
small innovations can have a large and meaningful effect on our 
lives. Dr. Hales' Burkolator is an excellent example of this. 
The Burkolator is an autonomous analyzer the size of a piece of 
carry-on luggage that has helped shellfish growers across the 
Pacific Northwest determine the best time to grow larva. The 
Burkolator can determine the oceans' ability to form the 
calcium carbonates needed for shell formation, and it can be 
installed on ships. The Burkolator is available commercially, 
and it's allowed shellfish growers to take control of their 
livelihoods by putting the tools they need to be successful at 
their fingertips. None of this would have been possible without 
the federal research grants that provided the initial funding.
    Although the range of technologies we're discussing in 
today's hearing is narrowly focused on oceanic and atmospheric 
observations, it's important to note that both the EPA and NOAA 
cover a broad range of environmental monitoring and 
observations that would be negatively affected by the 
President's proposed budget for fiscal year 2018. The 
President's proposed budget would cut EPA's state and local air 
quality management grants by 30 percent, which would have a 
devastating effect on the ability of many state and local 
agencies to adequately maintain their ambient air quality 
monitoring programs. This could lead to negative public health 
outcomes for many residents.
    Similarly, the proposed cuts to numerous NOAA grant 
programs would severely limit the ability of the agency to meet 
its mission on environmental monitoring and observations. 
Although I'm looking forward to today's discussion about new 
technologies, we must remember that fundamental science at 
federal agencies such as the EPA and NOAA are on the chopping 
block under this Administration.
    As we listen to our witnesses, let's acknowledge that 
federal agencies play an integral role in funding and 
accelerating the development of new technology to fit specific 
needs of niche markets or entire sectors. This is the Science 
Committee, and I want to emphasize how critical it is for 
Congress to continue to fund basic science at both NOAA and the 
EPA.
    The President's budget proposes cuts to fundamental 
scientific research funding at EPA's Office of Research and 
Development by almost 50 percent, and NOAA's Office of Oceanic 
and Atmospheric Research is slated to be cut by 32 percent. 
These numbers are unacceptable, and they demonstrate that this 
Administration lacks an understanding or concern about the 
importance of scientific research and promoting public health 
and protecting the environment and property.
    I'd also like to draw attention to the troubling fact that 
there have been no nominations to fill any appointed positions 
at NOAA since the beginning of this Administration. This vacuum 
of leadership has left the agency, well, rudderless, pardon the 
pun, with line offices neglected. The mission of NOAA's line 
offices are simply too important and the stakes too high for us 
to wait any longer. Our Committee must be advocates for NOAA's 
role in our economy and for the safety of our citizens who rely 
on their research and data.
    We need to have discussions about the state of science at 
NOAA and the EPA and its leadership, and I hope that we are 
able to have a frank and open conversation about the future of 
both agencies soon.
    And I want to add, Mr. Chairman, you mentioned the Weather 
Forecasting Innovation Act. I was a proud cosponsor of that act 
and worked on it for actually several years, beginning with a 
former Environment Subcommittee Chair, Representative Stewart, 
and then the next Subcommittee Chair Mr. Bridenstine, as well 
as Mr. Lucas. So, we spent a lot of time talking about that 
bill, and I look forward to continuing conversations about its 
implementation.
    So, again, I look forward to the discussion with our 
witnesses today about the exciting technologies that they are 
working on, as well as the integral role that federal 
investments play in promoting innovation within the realm of 
environmental monitoring in both the private sector and 
academia.
    And with that, I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Biggs. Thank you, Ms. Bonamici.
    I am going to introduce--begin introducing our witnesses. 
Our first witness today is Mr. Sebastien de Halleux, Chief 
Operating Officer at Saildrone, Inc. Mr. de Halleux is the 
recipient of the 2012 EA Emerging Leaders Award, the 2011 Tech 
100 Award, the 2010 Tech Fellow Award, and the 2003 Booz Allen 
Professional Excellence Award. He received his master's degree 
in civil and environmental engineering from Imperial College 
London.
    And our second witness is Dr. Neil Jacobs, Chief 
Atmospheric Scientist at Panasonic Avionics. Previously, Dr. 
Jacobs worked on various projects, including NASA's Earth 
Systems Science Program, GOES Satellite Imagery, Department of 
Energy's Ocean Margins Program at the National Weather 
Service's Atlantic Surface Cyclone Intensification Index. He 
received bachelor's degrees in mathematics and physics from the 
University of South Carolina, and an M.S. in air-sea 
interaction and a Ph.D. in numerical modeling from North 
Carolina State University.
    I now yield to Ms. Bonamici to introduce our third witness, 
Dr. Burke Hales.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I am pleased to welcome to the Committee and introduce Dr. 
Burke Hales, a Professor of Ocean Ecology and Biogeochemistry 
in the College of Earth, Ocean, and Atmospheric Sciences at 
Oregon State University.
    Dr. Burke has an undergraduate degree--excuse me, Dr. Hales 
has an undergraduate degree in chemical engineering and a 
doctorate in chemical oceanography from the University of 
Washington.
    Dr. Hales has had many noteworthy accomplishments over the 
course of his career where much of his research has been 
focused on coastal ocean carbon cycles, ocean acidification 
monitoring, and experimental technology.
    Recently, Dr. Hales' most publicized work has been 
developing a technology called the Burkolator that is used by 
shellfish farmers in Oregon to help them deal with the rising 
acidity of the ocean. And I look forward to hearing more about 
that in his testimony.
    Thank you to Dr. Hales and the other witnesses for being 
here today, and I yield back.
    Chairman Biggs. Thank you. I now recognize Mr. de Halleux 
for five minutes to present his testimony.
    Can you please press the mic button? There we go.

             TESTIMONY OF MR. SEBASTIEN DE HALLEUX,

                    CHIEF OPERATING OFFICER,

                         SAILDRONE INC.

    Mr. de Halleux. Thank you, Mr. Chairman and Members of the 
Environment Committee, for providing an opportunity to discuss 
this important topic of environment technology advances. It's 
an honor to testify in front of your Subcommittee.
    My name is Sebastien de Halleux, and I'm the Chief 
Operating Officer of Saildrone, a company based in Alameda, 
California. We have developed unmanned surface vehicle 
technologies focused on collecting ocean data cost-efficiently, 
at scale, providing insights into systems like weather 
forecasting, fish stocks, marine life, surface and subsurface 
maritime traffic.
    Oceans play a key role in our nation's continued economic 
growth, contributing an estimated $359 billion in gross 
domestic product. Of all observation, in situ ocean data is 
critical to understand global systems, yet collecting in situ 
ocean data is expensive because it relies on ships. A 
government research vessel costs anywhere between $100-200 
million to purchase and $35,000 to $60,000 a day to operate.
    If I could have slide 1?
    [Slide.]
    The commercial sector has developed cost-efficient--the 
previous slide, please.
    The commercial sector has developed cost-efficient 
environment technology advances in response to this problem, an 
example of which is the Saildrone unmanned surface vehicle, 
which you can see on the slide, capable of missions of up to 12 
months using no fuel, but wind power alone for propulsion. Each 
23-foot-long USV carries a suite of sensors monitoring key 
environmental variables covering the atmospheric, surface, and 
subsurface domains and using a persistent satellite 
communication link to send this data in real time back to 
shore.
    USVs of this type are good for many different government 
applications and serve as both defense and civilian needs, 
including maritime domain awareness, drug interdiction, weather 
forecasting, fish stock assessment, and other environmental 
observations.
    Of course, data quality and cost-efficiencies are key and 
both have been demonstrated over 100,000 nautical miles of 
missions in partnership with NOAA, which has deemed the 
Saildrones, quote, ``a platform that is ready for ocean 
research, missions from the tropics to the Arctic,'' end quote.
    And like many technology advances in the past, Saildrone 
USVs are offered as a fully managed service, including the USV 
lease, its operation, the data management, distribution for 
fixed daily price per USV without requiring expensive up-front 
investments. And in getting the private sector to pay for the 
expensive infrastructure and shouldering the operational risk, 
this public-private partnership framework provides great value 
to NOAA.
    Slide 2, please?
    [Slide.]
    NOAA's current fleet of 16 research and survey ships is 
currently unable to meet the internal demand for days at sea, 
over 3,000 unaddressed days at sea in fiscal year 2017 
according to NOAA's own fleet plan. This shortage and NOAA's 
recognized ocean data gaps can be addressed by USV technology, 
augmenting NOAA's ships, though only for those roles requiring 
data collection, i.e., the long tail of data collection, as 
higher capabilities will always require actual ships.
    However, despite being a very effective R&D partner, NOAA 
has no clear pathway or budget to move this type of technology 
innovation from R&D into operation, and therefore, not 
realizing the associated cost savings. We would recommend that 
such a pathway to operation be better defined.
    The Weather Research and Forecasting Innovation Act that 
you mentioned stops short of defining a clear public-private 
partnership framework and remains ambiguous in defining the 
type of data that it encourages NOAA to source in the private 
sector. We would recommend that these ambiguous data types be 
clarified to include ocean surface observation, thus 
encouraging such public-private partnerships.
    Yet in spite of the challenges mentioned here, the Nation 
still holds a leadership position and a strategic advantage in 
environmental observation and the technologies that make those 
observations possible, reliable, and accurate. U.S. policy and 
regulatory mechanism need to reflect the current status of 
technology and market factors and also anticipate more 
innovative technological developments with an eye towards 
efficient addressing of mission and incentive-creation for U.S. 
industry. The Nation as a whole benefits from such an approach.
    I would like to thank you for the opportunity to express my 
views today, and I'm prepared to answer any question you might 
have.
    [The prepared statement of Mr. de Halleux follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Biggs. Thank you. I now recognize Dr. Jacobs for 
five minutes to present his opening statement.

                 TESTIMONY OF DR. NEIL JACOBS,

                  CHIEF ATMOSPHERIC SCIENTIST,

                       PANASONIC AVIONICS

    Dr. Jacobs. Good morning, Chairman Biggs, Ranking Member 
Bonamici, and Members of the Subcommittee. My name is Neil 
Jacobs, and I serve as Chief Atmospheric Scientist for 
Panasonic Weather Solutions, a division of Panasonic Avionics 
Corporation. I am honored to be invited to participate in 
today's hearing.
    Panasonic is very pleased to continue our longstanding 
public-private partnership to provide TAMDAR data to the 
National Weather Service through the National Mesonet Program, 
which is an example of a successful business model for 
commercial atmospheric data acquisition. TAMDAR, which stands 
for tropospheric airborne meteorological data reporting, 
provides real-time observations of wind, temperature, moisture, 
pressure, icing, and turbulence. These data are downlinked 
through either Iridium's low-Earth orbiting satellite network 
or Panasonic's high-throughput geostationary satellite Ku band 
network. Once received, they are decoded, quality-controlled, 
and passed on to the National Weather Service with a latency of 
less than 20 seconds.
    The aircraft-based weather observations are assimilated 
into the National Weather Service forecast models, and numerous 
studies have been conducted to document the substantial 
positive impact on predictive skill. Visualization of the raw 
observations can also be used to manually adjust regional 
forecasts for convective activity and precipitation type issued 
by the National Weather Service forecast offices.
    The icing and turbulence observations can be used to 
enhance aviation situational awareness for both commercial and 
general aviation. These observations are used by the NTSB as a 
routine part of many aviation accident investigations.
    The TAMDAR network is rapidly expanding overseas, and many 
airlines are utilizing both real-time observing systems and 
forecast models to enhance safety, as well as operational 
efficiency. Additionally, significant fuel savings are realized 
by the airlines, which has the added benefit of greatly 
reducing the footprint of--the carbon footprint of commercial 
aviation.
    A miniaturized version of this sensor has been developed 
for UAVs. It is currently in operation on a number of 
platforms, including NASA's Ikhana, which is a nonweaponized 
predator drone used for scientific research. The probe has also 
the capacity to do additional sensing such as various air 
quality metrics.
    In addition to the airborne sensing network, Panasonic is 
in the initial stages of deploying ship-based marine and 
atmospheric sensing capabilities through ITC Global, which is a 
Panasonic-owned company that supplies broadband to the maritime 
industry.
    Panasonic is the only private entity in the world with a 
custom-developed global weather modeling platform initialized 
from raw observations and completely independent from NCEP-
produced global model data. This prediction system includes an 
80-member ensemble in addition to high-resolution deterministic 
model. The global model is designed to assimilate both 
conventional observations, as well as satellite radiances among 
other remotely sensed data sources, including commercial GNSS 
radio occultation measurements. Panasonic also runs regional 
models in air quality dispersion models, which are initialized 
from boundary conditions provided by our global model.
    The next-generation Panasonic global model will employ the 
capability to run various dynamic cores, some of which are 
currently being co-developed between public, private, and 
academic sectors. Further advancements are being made for the 
data assimilation system, as well as two-way coupling of an 
ocean model. As part of this development initiative, Panasonic 
has established a very successful academic-private partnership 
with multiple universities and institutions, including 
University of Maryland, North Carolina State University, and 
the National Center for Atmospheric Research. Panasonic funds 
several programs at these institutions, which support faculty 
and students in STEM-related fields.
    While commercial restrictions are placed on the 
redistribution of Panasonic data and intellectual property, we 
routinely grant research-only license agreements to 
universities so that faculty and students have free access to 
our data for educational purposes. At Panasonic, we believe it 
is critical to the structure of public-private partnerships 
such that industry is incentivized to collaborate with federal 
agencies, as this is more convective to the mutual success of 
both sectors.
    A thriving private sector in the weather enterprise can not 
only provide data, products, and services to enhance submission 
of various federal agencies but can also fast-track applied 
research and innovation through partnerships with the academic 
sector.
    Since its founding in 1998, Panasonic Weather Solutions has 
worked cooperatively with federal agencies providing its data 
to NOAA and the FAA and at many times at no cost. While we are 
a commercial company responsible to our shareholders, we at 
Panasonic also have another responsibility to help share our 
technological expertise with the national meteorological 
agencies around the world.
    Mr. Chairman, Ranking Member Bonamici, and Members of the 
Subcommittee, thank you again for inviting me to participate 
today. I would be pleased to answer any questions you may have.
    [The prepared statement of Dr. Jacobs follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Chairman Biggs. Thank you, Dr. Jacobs.
    I now recognize Dr. Hales for five minutes.

                 TESTIMONY OF DR. BURKE HALES,

        PROFESSOR IN OCEAN ECOLOGY AND BIOGEOCHEMISTRY,

                       COLLEGE OF EARTH,

                OCEAN AND ATMOSPHERIC SCIENCES,

                    OREGON STATE UNIVERSITY

    Dr. Hales. Thank you, Chairman Biggs, Vice Chair Banks, and 
Ranking Member Bonamici, for the opportunity to speak to you 
today to discuss the importance of federal investment in 
environmental monitoring systems technology innovation. And 
thank you, Representative Bonamici, for the introduction.
    I study ocean carbon cycles and its boundaries, the sea 
floor, the sea surface, and the land-ocean margins. Throughout 
my 20-year career, I've embraced technological development to 
explore new knowledge and real-world solutions with end users 
in mind. My work is supportive of and supported by a number of 
federally funded monitoring programs, including the National 
Science Foundation Ocean Observatories Initiative, NOAA's 
Integrated Ocean Observing System, and the National Weather 
Service, as well as the NOAA and NASA Earth Observing Satellite 
programs. While each of these programs serve unique objectives, 
they're being leveraged in the field to drive groundbreaking 
research in technology innovation.
    For today's testimony, I will highlight this--I will 
highlight an example of my technology innovation that's been 
particular impactful in the West Coast for shellfish 
agriculture.
    In 2007, shellfish hatcheries that support the commercial 
shellfish aquaculture industry in the U.S. West Coast began to 
experience failure in the production of the larval shellfish, 
the seed that is sold to commercial growers. Commercially 
available monitoring technology couldn't identify what was 
happening or how to remedy it. Alan Barton, the Manager at the 
Whiskey Creek Shellfish Hatchery in Netarts Bay, Oregon, 
contacted me to pursue linkages between production failure and 
bay water carbonate chemistry.
    My measurement, together with his hatchery production 
records, identified the environmental trigger for this seed 
stock crisis. Exposure of larvae in their first few hours to 
days of life to waters with low favorability for shell 
development is resulting in stress that dramatically reduced 
seed growth and survival.
    Complexity of this problem and why it demanded new 
technology solutions stems from the variety of ways carbonate 
chemistry in natural waters responds to natural and 
anthropogenic forces. These responses include changes in 
dissolved carbon dioxide gas, PH, and the favorability of 
waters for carbonate mineral shell formation, upon which many 
shellfish rely.
    The favorability for mineral formation, also known as 
omega, cannot be directly measured but must rather be 
calculated from multiple parallel measurements of carbonate 
chemistry. In dynamic coastal waters the seemingly simple 
measurement of PH is far more difficult than widely realized 
and is itself a poor proxy for the more critical value of 
omega. The intake water chemistry could previously only be 
determined adequately by infrequent and costly discrete samples 
that could sometimes take months for analysis, leaving hatchery 
operators blind to the environmental conditions that impacted 
their operations to the greatest extent.
    With technological development, motivated by my own ocean 
carbon cycle research and supported by grants from National 
Science Foundation and NOAA, I ultimately developed a system 
and devised sampling protocols with low cost and skill barriers 
to develop data systems for routine service sample analyses. 
These systems allow commercial users to assess real-time 
carbonate chemistry conditions relevant to the production of 
shellfish seed stock.
    At Whiskey Creek, which was near total collapse in 2007, 
the installation of the prototype system in 2009 and the 
development of proper approaches to buffering intake seawater 
operations allowed the hatchery to begin to recover. Now, 
Whiskey Creek is back to near total production recovery to pre-
crash levels. This work was referred to by former NOAA Chief 
Scientist Rick Spinrad as the $100,000 investment that saved a 
$200-million-per-year industry.
    These systems, first popularized by Netarts Bay oysterman 
Mark Weigardt as the percolator in reference to the bubbling 
gas separation chamber, could be produced at a cost well under 
half that of instruments at the time used in the research 
community and provided significantly greater capacity for 
measurement flexibility than any existing technology.
    While the price per instrument is still high, the benefit 
of the knowledge it produces for more efficient commercial 
operations has been embraced by the shellfish industry on the 
North American Pacific coast. More than 20 systems have been 
deployed or are in development for deployment in shellfish 
production facilities and marine laboratories from Carlsbad, 
California, to Seward, Alaska. Further commercialization will 
continue to reduce unit cost and streamline maintenance 
operations.
    The technology has been commercialized via license by 
Oregon State University to my limited liability corporation and 
will soon be sublicensed to Sunburst Sensors of Missoula, 
Montana. In addition, the continued generation of research 
quality monitoring data serves the working waterfront 
stakeholder and oceanographic research communities alike.
    In summary, while there was urgency among the shellfish 
industry for a Burkolator technology solution, the market was 
initially too small to provide motivation to independently 
develop a market-driven prototype from a purely commercial 
perspective without the research-driven environmental 
monitoring technology development that I had already completed.
    This federal- and university-supported innovation pathway 
represents an ideal model for application of research-driven 
technological development and unique market needs and, 
ultimately, technology transfer to the commercial sector.
    Thank you for the opportunity to testify today on the 
importance of our federal investment in environmental research, 
monitoring, and observation systems and research-led technology 
investigation. I welcome the opportunity to expand on and 
clarify my comments in response to any questions you may have.
    [The prepared statement of Dr. Hales follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Biggs. Thank you, Dr. Hales. And I thank each of 
the witnesses for their testimony.
    Members are reminded that committee rules limit questioning 
of the witnesses to five minutes, and the Chair recognizes 
himself for five minutes.
    Dr. Jacobs, I understand that NOAA currently buys a limited 
amount of the data you collect. Can you explain the 
relationship between Panasonic and NOAA? And does NOAA freely 
distribute your proprietary data?
    Dr. Jacobs. The current relationship we have is to sell 
NOAA a subset of our TAMDAR data through the National Mesonet 
Program. We do put redistribution restrictions on that data 
both to other WMO members, as well as open to the commercial 
market. The reason why we do that is we need the opportunity to 
sell the data to those other government agencies, as well as 
business customers. If the data were redistributed openly and 
freely, then we wouldn't have that opportunity and we would 
have to build that into the price that NOAA would pay for the 
data.
    Chairman Biggs. I also understand that Panasonic runs its 
very own weather prediction model. How does this model compare 
to our government's model? And do you think NOAA's strategy for 
technology innovation has slowed their ability to create better 
weather forecasts?
    Dr. Jacobs. Our model is somewhat similar to theirs in the 
data assimilation component and the dynamic core. A lot of what 
differentiates it are things we do in the model as far as the 
physics. There are some other different steps in the data 
assimilation process. In addition to that, we use not only the 
observation systems that they assimilate, but we have 
additional observations that we assimilate into our model as 
well.
    As to their timeline, they're on a pretty robust, slow 
timeline. I think it's really important for them from my 
perspective the way I see them operate is worried about up-time 
and reliability, so having transitions to newer models takes a 
tremendous amount of testing and sometimes several years to 
test these new upgrades that they implement.
    Chairman Biggs. And for Mr. de Halleux, I understand you 
have partnered with NOAA and the Navy to validate some of the 
data you collect. Is there any indication that the federal 
government is willing to purchase your data on a longer-term 
contract?
    Mr. de Halleux. This is correct. We currently work with the 
Navy and NOAA on the assessment of the technology. We have a 
five-year agreement with NOAA OAR, and we have been working 
with the Pacific Marine Environmental Laboratory and the Alaska 
Fisheries Science Center on a rigorous comparison between the 
data quality collected by the Saildrone vehicles and the 
existing NOAA assets, in this case, research vessels and buoys. 
And the assessment has come back positive.
    And to answer your question, yes, there is willingness of 
engaging on the longer-term basis but no defined mechanism for 
transferring the technology from the lab inside NOAA to the 
line offices.
    Chairman Biggs. Just--when you say the assessments came 
back positive, can you elaborate on that just for a minute, 
please?
    Mr. de Halleux. Yes. So, the assessment was essentially a 
correlation of the data set from existing NOAA assets--ships 
and buoys--and Saildrone technologies equipped with the same 
instrument located in the same location during the same time 
frame. So physically, it's called follow the leader where you 
have USVs and 500 yards behind a research vessel collecting the 
exact same data, scientists at NOAA have subsequently analyzed 
the two different data sets and found the correlation to be, 
quote/unquote, ``outstanding'' in terms of the quality of the 
data.
    Chairman Biggs. In your experience, has working with the 
government been a fast and easy process? And have you found 
that the government seriously considers its private partners 
for anything more than trial periods?
    Mr. de Halleux. So, to answer the first part of your 
question, yes. Our particular experience with NOAA on the 
research and development side has been outstanding on all 
accounts in terms of the speed of adoption, the assets that 
were mobilized for assessing new technologies, and the types of 
missions we've performed, which have ranged from Arctic 
exploration to tropical Pacific missions to fisheries research 
missions.
    The second part of your question, the transfer of the 
technology once the assessment is performed, is kind of the 
point we are at right now, and there is a question mark as to 
how the technology gets transferred once it's been assessed and 
has matured into recurrent operations.
    Chairman Biggs. Well, with that in mind, what can we do 
better? What--where do we need to get better in--you know, such 
as in licensing? How do we improve from your perspective?
    Mr. de Halleux. So----
    Chairman Biggs. And I'm not--nobody's going to hold you to 
this. I just--you know, just get your idea.
    Mr. de Halleux. It's hard for me to answer that directly. I 
think the improvement is around both the mandate such as the 
ones that are given by the Weather Service and, you know, more 
precisely highlighting the need for public partnerships in 
those line offices. And there's always, in any scientific 
organization, reluctance to introduce new technologies because, 
as you introduce new technologies, you introduce new ways of 
working.
    And what's very important to remember is that these 
technologies are augmenting existing capabilities. As I was 
saying my testimony, ships are required for high-capability 
missions, which require in situ sampling, deployment of assets, 
things like that. But the unaddressed--what we call the long 
tail of data collection is what, you know, needs to be taken 
care of with new technologies. And so defining those 
frameworks, those public-private partnership frameworks is kind 
of what's needed to be able to move that forward and with that, 
you know, the budgets that support those new technologies, 
which NOAA currently does not have.
    Chairman Biggs. Thank you. Again, thanks to all the 
witnesses. My time is expired.
    I recognize the Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And first, I--before I ask you my questions, I want to note 
that there's a lot of questions being asked today about NOAA. 
It would have been helpful to have NOAA as well and testimony 
from them about working with these different partners, so I 
hope that in the future we can include NOAA when you're 
planning a hearing like this where we're asking lots of 
questions about working with NOAA.
    Dr. Hales, you told that great story about the shellfish 
industry in the Pacific Northwest, and being from the Pacific 
Northwest, it's very close to home to me, but I want to 
emphasize that this is an issue that affects people across the 
country. When they go to a restaurant or a grocery store and 
want to buy shellfish, they want it to be there. And I know 
that that was important work and a really great example of how 
commercial technology can grow out of fundamental scientific 
research.
    And in telling your story, I think you've made it pretty 
clear that the shellfish growers did not have the tools 
themselves to adapt to the changing acidity of the ocean. They 
needed a tool like the Burkolator. And can you answer the 
question about would you or another researcher have had the 
time and resources necessary to build that tool without federal 
funding, the grants through NSF and NOAA?
    Dr. Hales. The short answer is no. Without the prior 
research-driven support, this work wouldn't have happened. I 
developed individual components of these systems in response to 
needs from my high-resolution, high-frequency sampling systems, 
and when I was contacted by the hatchery industry, most of this 
work was done on a shoestring with existing technology, spare 
parts and devising ways to merge those two measurement 
capabilities in ways that would help the shellfish industry.
    Ms. Bonamici. Thank you. And I know, Mr. de Halleux, and--I 
hope I was close in the pronunciation--and Dr. Jacobs, I know 
in your testimony you made it pretty clear that your work is to 
supplement or to augment, not to replace, the work of NOAA, 
NSF, the federal agencies. Can you talk a little bit about how 
the federal government can continue to be an important 
contributor to technology innovation for the future and what 
federal investments or incentives are most important to help 
drive commercialization of research-driven technology and 
innovation? Go ahead.
    Mr. de Halleux. So, it's very important to realize that 
companies like Saildrone harness the best of the private 
sector, which is rapid iteration of R&D, to solve complex 
engineering problems very cost-efficiently, but we are not 
scientists, and therefore, our only mission is to solve 
engineering problems to make agencies like NOAA and NASA more 
efficient from a science perspective. And therefore, you know, 
the role of--that NOAA plays is a critical one on the science 
front, and our hope is that, you know, by contribution from the 
private sector we can accelerate the science to answer 
questions that further the missions of those agencies.
    Ms. Bonamici. Thank you. And I know we've had conversations 
in this committee about technology transfer and 
commercialization, and I hope we can continue those.
    Dr. Jacobs?
    Dr. Jacobs. I view it as a very good thing to have the 
opportunity to have a business relationship with NOAA that 
enables us to have a sustainable model but also allows them to 
advance their mission and improve their forecast services to 
the public. So, I think it's a very----
    Ms. Bonamici. Terrific. Thank you. And again, in this 
committee we've had a lot of conversations about data quality 
and quality assurances, and they're a priority, I know, for 
monitoring systems and supporting technology, whether publicly 
or privately owned, for research or commercial purposes. So, 
what role should the federal government have to ensure 
technology and monitoring systems are providing users with 
reliable and accurate data? And can you walk us through--I know 
we don't have a lot of time, but summarize your process for 
data validation. Dr. Jacobs, would you like to start?
    Dr. Jacobs. So, we--this is one reason why we do a lot of 
internal modeling, because we use our own models to sort of 
quality control the data. So, there's a pretty elaborate 
quality control system we have in place that screens the data 
before we pass it to the Weather Service. We pass along those 
quality control flags with the data to them.
    In addition to that, the FAA also funded a four-year data 
denial study with the Weather Service to analyze the impact of 
our data in their models. So, from our perspective, we prefer 
that NOAA sets the bar for data quality and we have to jump 
over it.
    Ms. Bonamici. Do you concur?
    Mr. de Halleux. We totally concur, and we let NOAA drive 
the quality definition of both the process and output, and we 
comply with, you know, all the required processes to assure the 
quality is there. It's of paramount importance, as you stated.
    Ms. Bonamici. Thank you very much. And my time's about to 
expire. I yield back. Thank you, Mr. Chairman.
    Chairman Biggs. Thank you.
    The Chair recognizes Representative Babin for five minutes.
    Mr. Babin. And I'm from Texas there, Mr. Chairman.
    Chairman Biggs. The gentleman from Texas, yes, sir. I'm 
sorry.
    Mr. Babin. Thank----
    Chairman Biggs. I should have mentioned that.
    Mr. Babin. Thank you. Thank you very much, and thank the 
witnesses for being here, too. We appreciate it.
    I have several questions for Dr. Jacobs. Does the 
government take full advantage of the technologies that your 
company provides in your opinion?
    Dr. Jacobs. Currently, no. One of the things that they 
are--don't have access to in real time are the icing and 
turbulence data. So, the National Weather Service, through the 
Mesonet program, acquires the temperature, wind, pressure, and 
moisture data, but currently, neither the Weather Service or 
the FAA are receiving the icing and turbulence data.
    We do offer to, on a 48-hour delay, make that available, so 
quite often, the NTSB will contact me to do accident 
investigations if it was aviation-related to icing or 
turbulence. But currently, no one sees that data in real-time.
    Mr. Babin. Well, you would think that they would be 
interested in that information for goodness sakes. Why would 
the government decline to purchase high-quality weather and 
aviation data that could save and protect lives?
    Dr. Jacobs. My guess is it's budget-related. It's not that 
they necessarily haven't declined it; it's that they haven't 
put a solicitation out to receive it. But they are well aware 
that it exists.
    Mr. Babin. Okay. And then also it appears to me that NOAA 
is averse to changing things. Time and again, we've seen them 
move slowly to adopt innovative technologies to better monitor 
our environment and oftentimes refused to do so without being 
forced to do it legislatively, a mandate. In your opinion, how 
do we change the current paradigm so that NOAA can more 
effectively and efficiently innovate to protect lives and 
property? And in light of what you just said, maybe it's 
funding. I assume that we were giving them adequate funding, 
but let me hear what your opinion is.
    Dr. Jacobs. I think a lot of these innovations are rapidly 
evolving in the private sector, and probably the quickest way 
to advance NOAA's mission is to harness the capabilities in the 
private sector and let the private sector probably drive the 
pace. So, setting up a sustainable business model of public-
private partnership between the public sector and private 
industry would be a pretty way to fast track a lot of the 
innovations coming out of the private sector.
    Mr. Babin. They also claim that--NOAA also claims to--that 
they are, quote, an ``environmental intelligence agency.'' In 
your opinion, do you think they act as such?
    Dr. Jacobs. Defining the word intelligence in a way that 
means they are observing and sampling the environment, I 
suppose so.
    Mr. Babin. Okay. Well, does NOAA take full advantage of all 
the technological innovations to better monitor our 
environment?
    Dr. Jacobs. There are innovations that I'm aware of out 
there that they are not currently using.
    Mr. Babin. Yes. And then, Mr. de Halleux, can you chime in 
on some of this as well?
    Mr. de Halleux. I think, as I said, that NOAA has--is very 
good at looking at the technologies available and assessing 
them. I think it's the transfer and the public partnership 
framework that is missing and the dedication of imagining the 
future. So, it's one thing to say that a USV can produce same 
data quality as a ship. It's another to ask what could the 
technology do for a budget at scale? You know, what would a 
global observatory look like using new technologies either on 
the surface, at high-altitude, or from space? And that 
capability of planning and roadmapping is not always taking 
advantage of the private sector innovation.
    Mr. Babin. Absolutely. And, Mr. Chairman, I yield back the 
balance of my time. Thank you. Thank you.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentlelady from Hawaii, Ms. 
Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Thank you to the witnesses for being here. As you can 
imagine, representing Hawaii, all of your different topics are 
very important to me, especially because if there's any area in 
the United States that's very susceptible to oceans as well as 
weather, I'd like to think that it's us more than anyone else.
    Having said that, Dr. Jacobs, in reading your testimony, 
one of the statements that you made that caught my eye and I'd 
like for you to expand on is on page 3 when you said, ``In 
addition to passenger and crew safety''--you're talking about 
TAMDAR network--``significant fuel savings are realized by the 
airlines, which has the added benefit of greatly reducing the 
carbon footprint of commercial aviation.'' Can you explain 
that? As you know, nobody gets to Hawaii primarily unless 
you're on a plane, so what do you mean by that statement?
    Dr. Jacobs. So, this is another reason why we internally 
run a global model versus relying on NCEP output. We write out 
the native files from our model on flight levels, and we use 
the window grid from that to optimize the flight routes on 
assent, descent, and cruise. So, if the planes actually have 
the ability to find more efficient winds to fly through, they 
can use less fuel, so it's strictly a cost savings from the 
airlines' business perspective, but the added benefit is 
reduction in CO<INF>2</INF>.
    Ms. Hanabusa. And is this something that the airlines 
directly--but the airlines can't establish their routes, right? 
I mean, it's FAA-determined. So, do you sell that information 
to the FAA or--it seems to be that that's something that needs 
to be flexible by wind patterns as opposed to how I assume that 
they do it, which is to set it and say everybody flies this 
route. Am I correct?
    Dr. Jacobs. They have an option and it really depends on 
the airspace. For example, in the LaGuardia/JFK airspace, they 
have absolutely no control over where they fly----
    Ms. Hanabusa. Yes, I don't think they can move.
    Dr. Jacobs. --but there are quite a few areas, particularly 
at cruise level, where they have choices where they can fly 
either east or west over the pole or they can fly a higher 
latitude or lower latitude based on the position of the jet 
stream. And they can also choose different flight levels. But 
they still have to request that through ATC before they can 
file that plan.
    Ms. Hanabusa. I was going to say I think one of the issues 
that this Congress faced last year was the whole issue of how 
they would handle ATC, and it would seem like one of the 
critical issues there was how updated that equipment was. And 
I'm very curious about all these paper things that they put 
next to their radar so I'm not quite sure, so safety, I would 
assume, would be part of this discussion as well. So, Dr.--is 
it de Halleux?
    Mr. de Halleux. de Halleux.
    Ms. Hanabusa. de Halleux. I was very curious because you do 
DOD-related research, and as you can imagine, DOD is a very 
critical part of my State. And I also sit on Armed Services. 
The Saildrone is a fascinating technology. I'm curious that 
when you gather information for the DOD using Saildrone, you 
know, we've dealt before with the whole concept of dual use in 
terms of the technology that's gained. Do you have those issues 
with the information that you collect for DOD, or is that 
something that's exclusive within their jurisdiction?
    Mr. de Halleux. So, thank you for pointing out the multi-
mission capabilities of the platform. You're absolutely 
correct. As a platform, it can take both meta-ocean data 
collection while it's performing intelligence mission, whether 
it's traffic detection or others. And at the moment this is not 
fully exploited by DOD, although I would point out that DOD 
have their own meta-ocean data collection needs. It has 
certainly been explored extensively by NOAA where the last 
mission we had six different internal customers from 
identifying waves to collecting meta-ocean data to tracking 
marine mammals to traffic detection. So, multi-mission 
capability is a possibility. It's not fully harnessed yet 
specifically by DOD.
    Ms. Hanabusa. But that would be a natural for the 
Saildrone?
    Mr. de Halleux. Absolutely. All instruments run at all 
times, and therefore, it's a possibility.
    Ms. Hanabusa. Do they have any issues with U.S. security of 
the data collected?
    Mr. de Halleux. One of the first missions was to integrate 
and to look at the security framework of the data, and it's not 
been fully integrated into DOD frameworks for this application.
    Ms. Hanabusa. Thank you very much.
    Mr. Chair, I yield back.
    Chairman Biggs. Thank you.
    I recognize the gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. And thank you for 
holding this Committee hearing this morning.
    This subject is of particular interest to my district in 
northeast Indiana where we have one company, for example, 
Harris Corporation in Fort Wayne that has roughly 450 engineers 
and scientists making the world's most advanced weather and 
environmental satellite instruments for NASA, NOAA, and 
international customers. And as we examine the opportunities in 
the private sector to partner with the federal government on 
opportunities in the future, this hearing brings to light 
several important issues that we should examine further.
    And to take off of--from where my colleague from Hawaii 
started a moment ago, my question for you, Mr. de Halleux, is 
you work with both NOAA and DOD. Can you expand a little bit on 
some of the differences in attitude or culture and how you 
develop your relationship with both of those federal entities?
    Mr. de Halleux. So, with both we follow the similar 
process, which was, number one, appropriately assessing the 
technology by defining standards of quality. And on the case of 
DOD it's around intelligence. In the case of NOAA, it's about 
environmental variables. And the differences seem to appear 
that DOD is better equipped at transferring operationally 
assessed technology into operations by linking the technology 
with the capability with a need than NOAA seems to be, although 
the desire from both sides to use the technology is strong.
    Mr. Banks. So, take that a step forward. What can NOAA 
learned from DOD?
    Mr. de Halleux. I think that studying the capability and 
trying to plan how to use the capability in an operational 
setting and ultimately, you know, finding the budgets to 
operationalize it is something that the DOD is very good at and 
potentially NOAA could be inspired by.
    Mr. Banks. Any specific processes, programs that you've 
dealt with the DOD that could be replicated at NOAA that come 
to mind?
    Mr. de Halleux. I think, you know, the idea is to move from 
a research budget line to a program of record, which in NOAA-
speak is being embedded into a line office and finding a 
partner or an internal customer into the line office. That 
process specifically is something which is part of this public-
private partnership framework I was talking about. To be very 
specific, if the OAR labs assess the technology as fit for fish 
stock assessment, the fisheries organization at NOAA needs to 
be identified as an internal customer and pick up the 
technology for operation and develop integrated survey plans so 
that the technology can be operationalized.
    Mr. Banks. Is it--do you think at NOAA--is it an attitude 
or a sentiment that makes it more difficult to get to that 
recognition of the valuable partnership?
    Mr. de Halleux. The big difference is that NOAA functions 
on appropriations whereas DOD has bigger discretionary budgets, 
and I think that's--you know, that's the difference as we live 
it. And there is no budget available for the transition, and so 
the risk approach is more conservative because one technology 
has to displace another or gets further appropriated.
    Mr. Banks. How many years have you worked with both NOAA 
and DOD?
    Mr. de Halleux. Two-and-a-half years for NOAA, a year-and-
a-half for DOD.
    Mr. Banks. Okay. Dr. Jacobs, per your testimony, it's my 
understanding that there's been some interest from the 
government to partner with your company on your weather model. 
Can you describe where those conversations are at this point?
    Dr. Jacobs. There's a couple different fronts. Some of it 
deals with data assimilation, quality control, various physics 
schemes that we're using in our global model. There's also some 
modules that are being developed communitywide for dynamic 
cores. It's not really a scientific conversation as much as a 
business model conversation from our perspective. And what 
we're dealing with internally as far as the cost-benefit 
analysis is--the Weather Service has a--there's--the weather 
enterprise is basically divided into two groups. There's 
commercial companies that provide data and services to help the 
Weather Service further their mission, and then there's 
companies that use inset-produced model output to derive data 
and products.
    And in Panasonic's case, we compete against those companies 
on the backend. However, if we were to license any type of co-
development to help the Weather Service improve their model, we 
would by default be improving the products of our competitors, 
which use inset-produced model outputs, so we're struggling 
with how to make that balance work.
    Mr. Banks. Very good. Thank you very much. I yield back.
    Chairman Biggs. Thank you.
    I--the Chair recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I have several 
questions.
    Gentlemen, thank you for being here.
    Dr. Jacobs, just earlier today at the International 
Supercomputing Conference in Frankfurt, Germany, The Weather 
Company, which is an IBM business, announced a plan to improve 
weather prediction globally via new collaboration with the 
University Corporation for Atmospheric Research and the 
National Center for Atmospheric Research. This represents to me 
an exciting representation of an era of new technologies 
emerging every day.
    As a representative of a private sector company yourself 
who's developed its own weather forecasting model, quite 
successfully I might add, can you speak to the importance of 
this news? How welcome is competition in your industry?
    Dr. Jacobs. I think this is very exciting news. There's 
actually several companies that are beginning to run their own 
global weather models. One of the distinctions that I would 
like to point out, though, is that running a global weather 
model is not particularly the most sophisticated step in the 
process. The way the process works is you collect observations 
globally, including satellite data. You quality-control it. 
Then, you do this step called data assimilation. This is the 
part that you need $100 million supercomputers to produce the 
initial condition start file. Then, that file is used to 
initialize a global weather model, which in some cases you can 
run on a laptop.
    What Panasonic does is the entire process from observing 
systems all the way to the model. What most of these other 
companies are doing, which I still think it's fantastic, is 
downloading the start file produced by the National Weather 
Service NCEP and using that to initialize the model. That sort 
of gets these companies out of having to do a lot of the data 
assimilation process, which is actually the one that's 
computationally expensive to produce.
    Mr. Higgins. Regarding harvesting data, Mr. de Halleux, I'm 
very interested in the transition gradually to unmanned surface 
vehicles. That was a fascinating slide that you presented. Let 
me ask, how many are currently deployed and where?
    Mr. de Halleux. So, we currently have 20 vehicles, and they 
are all in--under research contract with NOAA as part of OAR 
and other research with the DOD. We are currently--we triple 
the production facility and we're planning to be producing one 
a day.
    Mr. Higgins. And they are collecting live data right now?
    Mr. de Halleux. They're collecting live data, yes, they 
are.
    Mr. Higgins. And is--are these SUVs protected from hacking? 
Data collection can impact international narrative on sometimes 
rather contentious subjects like climate change, global 
warming.
    Mr. de Halleux. So, the hacking protection and data 
security is paramount, and as I was saying, for the DOD, one of 
the first steps was to secure the data path from the vehicle to 
Iridium back to shore, so the answer is yes. On NOAA's side, 
data security is a wider topic, and the data--the concern there 
is to make the data publicly available for research----
    Mr. Higgins. But you feel like the vehicles themselves are 
protected from--at the collection site----
    Mr. de Halleux. At the collection site, one of the----
    Mr. Higgins. --they're protected from hacking?
    Mr. de Halleux. So, from--in general, which is--and 
vandalism overall, which is how NOAA describes the problem, 
which is a big problem for government assets, which has buoys, 
which get vandalized by fishermen----
    Mr. Higgins. Right.
    Mr. de Halleux. --and then taken for scrap metal, the fact 
that we are not on a chart and we are very hard to see and we 
have very low rate of signature, it protects them from----
    Mr. Higgins. That's a valid point. If I could, Mr. 
Chairman, it's been mentioned today of NOAA's budget and why 
they're not perhaps pursuing private technologies more fully. 
What I would ask this panel, isn't this problem more related to 
the increasing budgets for NOAA's satellite and ship programs? 
Is this--isn't this a major hurdle that needs to be overcome? 
Any member of the panel? In other words, we have to protect the 
people's Treasury, and there's been some discussion regarding 
NOAA's not pursuing private technologies, but NOAA's increased 
budget for satellite and ship programs seems to be in the way. 
How would you suggest that this panel would recommend we move 
forward with that?
    Mr. de Halleux. I think it's not so much an increase in 
budget, although you know more budget allows more technology 
for sure. I think the question is what is the technology mix to 
achieve specific mission objectives? And as we show today, some 
mission objectives are not reached because of, you know, 
potentially not being--using the optimal mix of available 
technologies.
    Mr. Higgins. Mr. Chairman, if you would indulge me, I have 
another question.
    Chairman Biggs. Without objection.
    Mr. Higgins. If you don't mind, thank you, sir.
    And this relates to perhaps the gentlelady, my colleague 
from Hawaii may be interested. The Fukushima nuclear disaster, 
they're still dealing with tons and tons, hundreds of tons 
daily of contaminated water. There's some discussion they're 
having a problem containing it. You know, they're running out 
of room, means by which to contain it. And there's some 
discussion regarding dumping that nuclear--that radioactive 
water into the Pacific Ocean. Are your vehicles, are your 
technologies, sir, from Panasonic, your unmanned vehicles 
capable of measuring radioactive contamination?
    Mr. de Halleux. So, we are engineers, not scientists. We 
can carry a payload anywhere for very long periods of time at 
very low cost. So, if--I believe there are instruments which 
can perform the assessment you mentioned. In this case, we can, 
you know, deploy them. We do not run the science or the 
instruments themselves.
    Dr. Jacobs. Our probe has capacity into it to host 
additional sensors for chemical, biological, and radiation 
measurements. This would be particularly useful on the UAV 
version----
    Mr. Higgins. Are you currently deployed in the Pacific 
Ocean near Japan?
    Dr. Jacobs. No.
    Mr. Higgins. Mr. Chairman, thank you for indulging that 
question. I think that this subcommittee in particular should 
be quite concerned regarding technologies deployed to measure 
that potential hazard for the entire world.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    Mr. de Halleux, in your testimony, you stated that drones 
could drive down cost of NOAA data collection activities by 90 
percent. You also agree with NOAA's assessment that it is a 
fallacy to assume that technology can replace ships in 
conducting NOAA's work obviously. In your estimation, how much 
of NOAA's weather data collection activities could be replaced 
by private sector drones right now? What kind of cost savings 
do you think could be realized from that?
    Mr. de Halleux. Thank you for the question. So, NOAA, as 
you know, has 16 research vessels and survey ships, of which 8, 
according to NOAA, are due to be retired in the near future and 
therefore makes it very hard to fulfill the mandate because if 
you want to deploy any type of capability, even pushing a 
simple instrument--you know, for example, to assess fish stock 
over the Bering Sea, you need a full research ship to do this.
    In those cases where the only capability required for 
mission is pure data collection, then USVs are uniquely 
qualified to perform those missions at the 90 percent cost 
efficiency, $2,500 per day versus $35,000 per day. But for 
missions which require high capabilities, including in situ 
sampling of fish or water or complex onboard analysis, you will 
always require a ship, and this is where we agree with the fact 
that the mix does need to include ship as the bedrock of 
observation.
    Mr. Posey. Some of us that watch the History Channel see 
some ships that appear to be NOAA crafts used by treasure 
hunters and other nongovernment entities. Does the government 
get reimbursed for that?
    Mr. de Halleux. I'm not qualified to answer that question. 
I don't have the facts.
    Mr. Posey. Okay. What rationale does NOAA give for not 
utilizing private sector capabilities?
    Mr. de Halleux. Those capabilities have been part of NOAA's 
fleet plan for a while. There is a mention of USVs as a 
contingency measure. And up until now, I believe there was no 
technology that fulfilled the operational needs of NOAA, which 
have assessed a range of different capabilities. And Saildrone 
seems to be one of the first companies that passes the 
threshold, and there is a strong desire inside NOAA to use more 
of that technology pertaining to problems that we mentioned in 
the past, which is, you know, questions around the public 
partnership framework and the availability of budgets for those 
new technologies.
    Mr. Posey. Thank you. Assuming data collection drones from 
industry become increasingly more capable in the future, what 
percentage of NOAA's activities would you estimate could be 
replaced by entirely unmanned systems in the next, say, 5 to 10 
years?
    Mr. de Halleux. Again, you know, over the next 5 to ten 
years, NOAA estimates that half the fleet will simply be out of 
commission due to its age, so that's a number, you know, even 
irrespective of joint technology which is to be considered.
    The second factor to consider is that the mission and the 
scope of the mission is increasing all the time as, you know, 
the complexity of the system monitoring and the data collection 
effort increases. So, I cannot give you a precise number. What 
I can tell you is that you can deploy a global service 
observation system on a 6-by-6-degree resolution with about 
1,000 drones. And in comparison, there is such a network that 
already exists subsurface called the Argo network, which uses 
3-by-3-degree resolution with close to 4,000 deep-ocean 
vehicles. So those things have been done. There is precedence 
for deploying unmanned technologies and to answer very 
important questions. Now, does NOAA want to envisage this kind 
of future remains to be discussed.
    Mr. Posey. Thank you, Mr. Chairman. I yield back.
    Chairman Biggs. Thank you. I thank each of the witnesses 
for your very interesting testimony and the Members for their 
questions as well.
    The record will remain open for two weeks for additional 
comments and written questions from Members.
    This hearing is adjourned. Thank you.
    [Whereupon, at 11:07 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
